<html>
<title> - NOMINATION OF JOHN H. THOMPSON</title>
<body><pre>[Senate Hearing 113-251]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-251
 
                     NOMINATION OF JOHN H. THOMPSON 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

   NOMINATION OF JOHN H. THOMPSON TO BE DIRECTOR OF THE CENSUS, U.S. 
                         DEPARTMENT OF COMMERCE

                               __________

                              JULY 9, 2013

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-574 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
            Deirdre G. Armstrong, Professional Staff Member
               Kristine V. Lam, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
                   James P. Gelfand, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     5
    Senator Johnson..............................................    13
    Senator Ayotte...............................................    15
Prepared statements:
    Senator Carper...............................................    23

                               WITNESSES
                         Tuesday, July 9, 2013

Hon. Richard J. Durbin, A United States Senator from the State of 
  Illinois
    Testimony....................................................     4
    Prepared statement...........................................    26
John H. Thompson, Nominee to be Director of the Census, U.S. 
  Department of Commerce
    Testimony....................................................     6
    Prepared statement...........................................    28
    Biographical and financial information.......................    30
    Responses to pre-hearing questions...........................    46
    Letter from the Office of Government Ethics..................    66
    Responses to post-hearing questions for the Record...........    68
Letters of support from:
    Asian Americans Advancing Justice............................    71
    American Sociological Association............................    73
    Council for Community and Economic Research..................    74
    Consortium of Social Science Associations....................    76
    Center for Regional Economic Competitiveness.................    78
    American Statistical Association.............................    80
    Demos........................................................    81
    Marketing Research Association...............................    83
    National Association for the Advancement of Colored People...    84
    National Association of Latino Elected and Appointed 
      Officials Educational Fund.................................    86
    O'Hare Data and Demographic Services, LLC....................    88
    Population Association of America and Association of 
      Population Centers.........................................    90
    Prison Policy Initiative.....................................    91


                     NOMINATION OF JOHN H. THOMPSON

                              ----------                              


                         TUESDAY, JULY 9, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Coburn, Johnson, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The Committee will come to order. Welcome, 
Mr. Thompson, and to the handsome young men that are with you, 
and everybody else, all of our guests, we welcome you this 
morning.
    I ran into Dick Durbin. I was with him briefly at a meeting 
earlier today, and I think he has been detained. He was going 
to come to introduce you, and as soon as he joins us. I will 
yield to him and ask him to do just that.
    Today Dr. Coburn, Senator Johnson, and I--and we will 
probably be joined by others on our Committee--we are pleased 
to consider the nomination, the President's nomination of John 
H. Thompson to be Director of the U.S. Census Bureau. I think 
we all realize that the role of the Census is to serve as the 
leading source of quality data about the Nation's people and 
our economy. The Bureau does this by conducting, as we know, 
numerous surveys. Sometimes we think it is just every 10 years, 
but it is actually every year, and those surveys in turn 
provide lawmakers like us, citizens, and businesses with a view 
of our Nation's social and demographic makeup.
    The most important and visible survey conducted by the 
Census is, of course, the one we do every 10 years. This once-
a-decade undertaking is really one of the few functions for the 
Federal Government that is actually explicitly spelled out 
under our Constitution. Its execution is often described as the 
largest peacetime mobilization in American history.
    However, the Census Bureau also conducts other important 
surveys such as the American Community Survey (ACS) which 
provides Federal, State, and local governments as well as the 
private sector with up-to-date information about the population 
within a certain geographic area. The collection of these data 
is important so that decisions such as how to distribute grant 
funding and where to build schools, where to build hospitals, 
and retail stores are not made with data that is nearly a 
decade old.
    Additionally, the Census Bureau collects the data that 
provides us with our monthly unemployment numbers. The Census 
Bureau's role in this area and in the Federal Government's 
efforts to effectively target initiatives aimed at growing our 
economy should not be overlooked.
    The Census Bureau has now been without a Senate-confirmed 
Director for nearly a year when then-Director Bob Groves 
departed last August to become the Provost of Georgetown 
University. A real loss to our Nation, a real gain for 
Georgetown University. I am, therefore, pleased, though, that 
the President has nominated what I believe to be a qualified 
candidate to lead the Census Bureau at least for the next 
several years and maybe even beyond that. I intend to work with 
Dr. Coburn and with my colleagues on this Committee to complete 
our review and to hopefully report this nomination for action 
by the full Senate as quickly as we can.
    The nomination of John Thompson comes at a unique time 
during the decennial cycle. While most people only pay 
attention to the Census Bureau in the year or two leading up to 
the decennial census, it is these interim years in the middle 
of the decade when some of the critical research, some of the 
critical testing, and planning phases are completed and the 
groundwork is laid for the actual count.
    Last decade, there were many problems, as we will recall, 
leading up to the 2010 decennial census. The roots of these 
problems were multifold, but they included poor planning and 
cost estimation. And I would add to that the inability to use 
technology in ways that were cost-effective. Most notably, the 
Census Bureau awarded a $595 million contract for the 
development of half a million handheld computers. These devices 
promised to reduce the time and cost of large operations such 
as address canvassing and non-response followup.
    However, the project experienced constant setbacks, 
including technical problems, escalating costs, and missed 
deadlines. Eventually, the decision was made in April 2008 to 
abandon the use of the handheld computers for much of the 2010 
decennial census and revert back largely to pencil and paper 
for the costly non-response followup operation. This decision 
ended up adding some $2 billion to the cost of the 2010 census, 
which in total cost taxpayers nearly $13 billion, the costliest 
counting or enumeration in our Nation's history and twice the 
cost of the 2000 decennial census.
    I do not want to rehash the details of the handheld 
contract or other problems in the years and months prior to the 
2010 decennial census, but I do want to call on the lessons 
learned during that experience as this Committee conducts 
oversight of the Census Bureau as we head into the 2020 
decennial census.
    As I will mention in greater detail during the question-
and-answer session, for each decennial census the Census Bureau 
has invested exponentially more resources to ensure quality 
results. The cost of conducting the census has, on average, 
doubled decennially since 1970. If that growth continues, the 
estimate for the 2020 census will not be $13 billion. It will 
be closer to $25 billion. Money we do not have. At a time when 
agencies across the Federal Government have been asked to do 
more with less, a $25 billion decennial census is just not 
acceptable. If you are confirmed, Mr. Thompson, this Committee 
will look to you to develop and implement initiatives to 
control costs while maintaining the quality and accuracy of the 
count.
    Another issue leading to the 2010 decennial census that I 
want to address is the 7-month leadership vacuum the Bureau 
struggled with in 2009. Less than 1 year before Census Day and 
facing a number of challenges, the Census Bureau was without a 
Senate-confirmed Director. While the nomination and 
confirmation process was part of the reason for this lengthy 
vacancy, the main issue was the 2008 election and the 
transition from the Bush Administration to the Obama 
Administration, which created the vacancy at the beginning of 
2009. An election in a year ending in the number 8 can lead to 
a months-long vacancy at a critical time for the Census Bureau.
    To address that problem, a number of us introduced 
legislation to create 5-year terms for the Census Director. The 
first term started January 2012, and future terms would begin 
in January of years ending in the number 7 and the number 2 so 
that a Director would be in place for the beginning of either 
the planning phase of a decennial census or the operating 
phase. This provision was adopted in legislation moving through 
Congress in 2012 and was signed into law that year.
    Mr. Thompson, if you are confirmed, you will be the first 
person to be confirmed who was nominated under this new law, 
and you would fill out the term that ends not in 5 years from 
the date of your swearing-in but ending December 31, 2016. You 
would be eligible, if confirmed, to be nominated for an 
additional two full terms. We will cross that bridge when we 
come to it.
    Additionally, the provision that was signed into law also 
sets forth several qualifications for future Census Director 
nominees. The law now requires that nominees to be Census 
Director have a demonstrated ability in managing large 
organizations and experience in the collection, analysis, and 
the use of statistical data. I am pleased that the President 
has nominated someone who I believe meets these requirements.
    If confirmed, Mr. Thompson returns to the Census Bureau 
where he spent some 27 years holding various positions, 
including Associate Director for the decennial census and Chief 
of the Decennial Management Division. In the year 2000, he was 
the senior career employee responsible for all aspects of that 
year's decennial census. In 2002, he left the Census Bureau and 
moved to Chicago to become the executive vice president of the 
National Opinion Research Center (NORC) at the University of 
Chicago. He performed the duties of that job so well that, in 
2008, he was elevated to become president of that organization.
    I am pleased that he has agreed to leave Chicago and return 
to Washington, DC, to lead the Census Bureau into the next 
decennial census, if he is confirmed. We look forward to your 
testimony today, Mr. Thompson, and we also look forward to an 
introduction of you by our friend and colleague Senator Durbin. 
Senator Durbin, welcome.

TESTIMONY OF HON. RICHARD J. DURBIN,\1\ A UNITED STATES SENATOR 
                   FROM THE STATE OF ILLINOIS

    Senator Durbin. Thanks, Senator Carper, Senator Coburn, and 
Mr. Thompson. I was downstairs in the Senate Judiciary 
Committee meeting, and coming back and forth. I apologize for 
coming a few minutes late, but I wanted to be here today to 
introduce John Thompson formally as the senior Senator from the 
State he calls home. He has for nearly four decades had 
experience in research and statistics, and he is a strong 
candidate for the position of Director of the Census Bureau.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Durbin appears in the Appendix on 
page 26.
---------------------------------------------------------------------------
    He serves as president of the National Opinion Research 
Center, headquartered in Chicago, which conducts social science 
research in the public interest. In addition to ensuring the 
quality of the research, Mr. Thompson also oversees a 
nationwide staff and has helped make NORC's activities more 
productive and cost-effective, Senator Coburn. While at NORC, 
he directed the National Immunization Survey from 2004 to 2006. 
It was the largest telephone survey of its kind in our Nation.
    Before starting at NORC 11 years ago, Mr. Thompson worked 
at the Census Bureau for 27 years, starting as a mathematical 
statistician in 1975 and going on to become the senior officer 
responsible for conducting and producing the 2000 census.
    Aside from his posts at NORC and the Census Bureau, he is 
also a leader in the social science research community, an 
elected Fellow of the American Statistical Association (ASA), 
an elected member of the Committee on National Statistics, and 
serves on the National Academy of Sciences panel addressing 
census concerns.
    Mr. Thompson's decades of research and statistical 
experience will serve him well if he is chosen to lead this new 
agency whose primary mission is to produce reliable data about 
our Americans and our economy.
    I cannot imagine a more qualified nominee. He has shown he 
can be an effective person when it comes to producing quality 
data and managing a large organization. He will be able to use 
his experience to move the census more fully into the digital 
world and make it even more reliable, accurate, and accessible.
    I would also like to note on a personal basis that, while 
living and working in Chicago, Mr. Thompson had the chance to 
cheer on his favorite national hockey team--the Chicago 
Blackhawks. And now that the team has secured the Stanley Cup, 
he is willing to leave Chicago and consider moving to 
Washington. But we hope that the Cup will follow him here, 
which it has in the past, and I had it in my office 4 years ago 
when the Blackhawks were last Stanley Cup champs. He is 
certainly welcome, as you all are, to come visit and see this 
beautiful trophy.
    On a more serious note, in talking with Mr. Thompson, I am 
impressed with his enthusiasm for taking on the 
responsibilities of Director. His warm personality will make 
him a great addition to this agency. He has some ideas about 
evaluating research methods, which I am sure you will get into 
during the course of this hearing. It is my pleasure to 
formally introduce him and to say that I fully support this 
nomination. And I hope I can be excused to go back to the 
Senate Judiciary Committee downstairs and do a little work 
there as well.
    Chairman Carper. All right. We are going to vote on whether 
or not we should excuse him. [Laughter.]
    Thanks so much for coming, for introducing your 
constituent, and for offering a little bit of humor. And when 
Senator Durbin leaves, we will talk about those Chicago Cubs 
and figure out why he did not do a better job getting them to 
the World Series. [Laughter.]
    All right. Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, thank you, Senator Durbin, for that 
endorsement. And, John, welcome. I enjoyed our visits in my 
office, and as you know, this is an area that I have taken a 
keen interest in over the last 9 years.
    The last census cost almost $50 per person to count. It is 
ridiculous. And I think Senator Carper raised the issues that 
the census has to be accurate, but it also has to be 
affordable, given the financial place that we are in.
    We visited a large number of things, and Senator Carper 
mentioned the contracting for the handheld device, and you and 
I had discussions on that in my office. I think Dr. Groves has 
done a good job in redirecting the organization, and I have 
every confidence that you will continue to improve on that.
    I look forward to asking you some specific questions this 
morning, but I am supportive of your nomination, and I have 
expressed to you personally my desires and goals to see your 
organization be very successful and very efficient.
    So, with that, I will yield back.
    Chairman Carper. Thanks, Dr. Coburn.
    John Thompson, nominated to be Director of the Census 
Bureau, has filed responses to a biographical and a financial 
questionnaire. He has answered pre-hearing questions submitted 
by our Committee, had his financial statements reviewed by the 
Office of Government Ethics. Without objection, this 
information will be made part of the hearing record with the 
exception of the financial data, which are on file and 
available for public inspection at our Committee's offices.
    Our Committee rules require, Mr. Thompson, as you may know, 
that all witnesses at nomination hearings give their testimony 
under oath, and I am going to ask you, if you will, stand and 
raise your right hand. Do you swear that the testimony you are 
about to give to this Committee will be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Thompson. I do, Senator.
    Chairman Carper. All right. Please be seated.
    We are going to go ahead and ask you to share with us your 
statement, and then I have a couple of traditional questions 
that we always ask that are required by law, and then we will 
ask more general questions. All right. Thanks. Welcome. We are 
glad you are here, and feel free to introduce those two guys 
that are sitting over your left shoulder and anybody else in 
the audience, any family or friends that you feel moved to 
introduce.
    Mr. Thompson. Well, thank you, Senator. Let me start by 
introducing my son Lowell.
    Chairman Carper. How old is Lowell?
    Mr. Thompson. Lowell was born in 1980.
    Chairman Carper. 1980. That is good.
    Mr. Thompson. John Thompson, my other son, who is 25 years 
old. Missy Koppelman, who works with me at the NORC, and I do 
not know how old she is. [Laughter.]
    Chairman Carper. She is young.
    Mr. Thompson. And Dan Gaylin, who also works with me at 
NORC.
    Chairman Carper. When people ask me the age of my two sons, 
I say, ``I do not remember their ages, but I know their 
names.'' [Laughter.]
    I do actually know their ages, too. They are 23 and 24. All 
right. Welcome, and we are glad that your two boys could be 
with you. They are proud of you. Please proceed.

TESTIMONY OF JOHN H. THOMPSON,\1\ NOMINEE TO BE DIRECTOR OF THE 
              CENSUS, U.S. DEPARTMENT OF COMMERCE

    Mr. Thompson. Thank you, Senator. Chairman Carper, Ranking 
Member Coburn, and Members of the Committee, I am pleased that 
you have convened this hearing to consider my nomination to the 
position of Director of the U.S. Census Bureau. I would like to 
begin by thanking President Obama for nominating me to one of 
the most important positions in the Federal statistical system. 
It is both an honor and a privilege to be given the opportunity 
to return to public service. I would also like to thank my 
wife, Bonnie, my family, and my colleagues at the National 
Opinion Research Center for their support and encouragement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thompson appears in the Appendix 
on page 28.
---------------------------------------------------------------------------
    Let me start by saying that I agree with the views of a 
number of previous Census Bureau Directors that a democracy 
needs credible, objective, and timely information on the growth 
of its population, the changing characteristics of its 
communities, and the health of its businesses to form the basis 
for solid policy decisions and other critical functions of 
governance. The statistical agencies produce such information 
in the United States. They are guided by principles of 
nonpartisanship, protection of individual privacy, and 
provision of high-quality information to inform decisionmakers 
and the public on the important issues facing our society and 
Nation.
    The Census Bureau is an important component of this 
information infrastructure. The statistics it collects are used 
to produce economic indicators, to determine the needs of local 
communities, and to inform policies to make American businesses 
more competitive.
    We are seeing a growing need for such data to support our 
economic growth and create jobs, and it is playing an 
increasingly significant role in all aspects of our daily 
lives. Going forward, our country will rely more heavily on 
institutions like the Census Bureau to deliver this vital 
resource. The next leader of the Census Bureau, therefore, must 
be committed to maintaining the Bureau's stature as the 
exemplary collector and disseminator of the highest quality 
information to help America forge its data-driven future.
    However, there are a number of rapidly emerging challenges 
and opportunities that have the potential to dramatically 
change the way in which information is collected, analyzed, and 
disseminated. Organizations that will be successful in the 
future must seize on these opportunities to produce quality 
information on a more timely and efficient basis. I am seeking 
your support for my nomination because I believe that I can 
provide the leadership and guidance that the Census Bureau 
needs at this critical time. If confirmed, I can assure you 
that I will use all of my skills and intellect to take the 
Bureau into the future, building on the exceptional groundwork 
that Dr. Robert Groves has already put in place.
    A little bit about me: I spent 27 years at the Census 
Bureau, followed by over 10 years at the National Opinion 
Research Center. At the Census Bureau, I held a number of 
management positions with increasing responsibility for the 
1980, 1990, and 2000 censuses, the most significant being from 
1997 through June 2001 when I served as the Associate Director 
for Decennial Censuses--the career executive with 
responsibility for all aspects of census 2000. I am proud to 
note that census 2000 was the first to employ state-of-the-art 
technology in optical scanning and intelligent character 
recognition to capture all of the information from the 
questionnaires, and all major operations were completed on 
schedule and within budget.
    I joined National Opinion Research Center in 2002 as 
executive vice president and became its president in 2008. NORC 
is a not-for-profit, independent organization affiliated with 
the University of Chicago that has been conducting important 
research in the public interest for over 70 years. NORC uses 
rigorous and innovative methods to conduct large surveys as 
well as to analyze and disseminate objective information. It 
informs decisionmakers and the public on important social, 
economic, and behavioral issues facing the Nation and the 
international community.
    During my tenure, I have seen and dealt with the dramatic 
changes that emerging technology can have on survey processes. 
Importantly, I have dealt with the growing demands to produce 
more information faster and less expensively through adoption 
of new technology and data sources. These are challenges that 
leaders of both private and Federal statistical organizations, 
including the Census Bureau, must be prepared to successfully 
confront.
    The Census Bureau, however, has a unique challenge and--at 
the same time--opportunity with respect to planning the 2020 
census. I believe that the resources now available will support 
a new census design that will fundamentally change the way in 
which censuses are taken in the United States--a design that 
has the potential to produce significantly less costly and 
faster results that are of similar or better quality than in 
previous censuses. Among the most promising options to 
accomplish this are:
    First, using the Internet as the primary self-response 
option;
    Second, taking advantage of technology and operations 
research methods to re-engineer the field data collection 
operations--reducing both the infrastructure required to 
support these operations and the actual hours that enumerators 
spend collecting the data;
    Third, making better use of Federal records to further 
reduce the dependence on in-person visits for data collection;
    And, fourth, drawing on the extensive array of emerging 
geographic tools and data sets to eliminate the need to 
physically canvass large portions of the United States to 
prepare the address list to support the 2020 census.
    In summary, the environment in which statistical agencies 
conduct their business is in a period of dynamic change with 
both risks and opportunities. I know what it means to manage in 
such an environment. Organizations that will be successful must 
constantly track emerging trends and advances and determine how 
they can be used to generate new and more effective processes. 
Most importantly, organizations must create and foster a 
culture of adaptability and creativity.
    I want to bring the skills I have developed both inside and 
outside of government to lead the Census Bureau. If I am 
confirmed, my goal will be to leave a legacy of innovation in 
all areas and at all levels of the Census Bureau and to design 
a 2020 census that represents a fundamental change for the 
future. I am committed to accomplishing this in an environment 
that is open and transparent to all stakeholders.
    Thank you and I am looking forward to working with this 
Committee.
    Chairman Carper. Thanks very much for that testimony. Let 
me just start off with a couple of simple, straightforward 
questions. One, why do we need a census? The Constitution says 
we must have a census every 10 years. Why do we need it? Why do 
we need to do interim censuses and gather information in the 
meantime? Why is it important?
    Mr. Thompson. The census is important for a number of 
reasons----
    Chairman Carper. Before you do that, let me ask these 
perfunctory questions. All right? The three that I mentioned.
    No. 1, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Thompson. No.
    Chairman Carper. No. 2, do you know of anything, personal 
or otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Thompson. No.
    Chairman Carper. And, No. 3, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed?
    Mr. Thompson. I certainly do.
    Chairman Carper. OK. Good. Thank you. All right. Back to my 
question. Why do we need a census? Why do we need a good one? 
Why do we need one that is cost-effective? Why is it important 
for our country?
    Mr. Thompson. Well, the census has a number of important 
purposes, the first being the reapportionment of the House of 
Representatives every 10 years.
    Chairman Carper. That is not so important to us in 
Delaware. [Laughter.]
    Maybe someday.
    Mr. Thompson. Second, it provides data that is used to 
redraw the congressional boundaries every 10 years. And, third, 
it provides a variety of data that are used to administer 
important Federal programs and are used by businesses, city 
planners, academics, people interested in the status of our 
country.
    Chairman Carper. How do businesses use this information? 
Why is it important?
    Mr. Thompson. It is important because they use it to make 
decisions that will help them grow, help them make right 
decisions, like where to put a new franchise, where certain 
individuals are that will buy their products based on ages, 
demographics, and income.
    Chairman Carper. All right. Well, I think a lot in terms of 
roles of government; I think we all do. One of the roles of 
government is to provide a nurturing environment for job 
creation and job preservation, and I explain that part of what 
the census does is it provides information to businesses so 
they can make smart business decisions in terms of location of 
the kinds of businesses and their future plan, their future 
strategy, and implement the strategies for those businesses.
    Bob Groves, I think generally very much admired for the 
work that he did, I think he came in at a tough time and 
provided good leadership for the Census Bureau, and he has gone 
on to Georgetown to be their provost, and they are lucky to 
have him. Why was he effective? Why do you think he was an 
effective leader? What were the qualities that made him an 
effective leader?
    Mr. Thompson. Well, I think there are a number of 
qualities.
    Chairman Carper. I think you know him.
    Mr. Thompson. I know Bob Groves.
    Chairman Carper. Pretty well.
    Mr. Thompson. I believe I recommended to this Committee 
that he be considered to be the Director of the Census Bureau. 
He is a long-time colleague. He is one of the best survey 
methodologists in the world, so he brought that knowledge to 
the Census Bureau. He brought some management skills to the 
census. I know that the 2010 census needed a lot of leadership, 
and under his leadership they ended up with ultimately a census 
that produced what appeared to be very accurate counts. But he 
also started at the Census Bureau to foster a culture of 
innovation and drawing creativity from all areas of the Bureau, 
and I think those are the three fundamental things that he 
brought.
    Chairman Carper. What do you bring? Do not be immodest. 
Frankly, I appreciate humility, I admire humility, I admire 
modesty, but this is not the time. What do you bring? What did 
the President see in you?
    Mr. Thompson. Well, Senator, I understand a lot about 
statistical methodologies, not at the level of Robert Groves, 
but I do not think there is anybody else in the world that 
probably does. I have experience in managing large operations. 
I have experience in motivating people to do very good work. 
And I believe I have the kind of experience that will allow me 
to form relationships with the many stakeholders of the Census 
Bureau and to put in place the groundwork for a new census 
process.
    Chairman Carper. I think I mentioned to you I was out in 
Silicon Valley about 2 years ago at a technology summit, a 
summit on innovation and technology, and I think it might have 
actually been hosted on the campus of Google, as I recall. And 
during one of the panel presentations, there were four or five 
of these companies, very successful technology companies, that 
talked about how they use social media to solve any wide range 
of challenges and gave just very interesting presentations on 
how they were able to solve problems and address issues in ways 
that a couple years ago we never would have imagined that could 
be done.
    How do we capture that kind of innovation and that 
understanding of how to use the technical skills that we have, 
many of them just on our handheld devices today? How do we 
within the Census Bureau capture that input from the private 
sector and use their ideas, harness their ideas to be able to 
drive us to a better count, a more accurate count, and in a 
more effective way? How do we actually do that? Because I think 
there are folks out there that would like to be part of this 
process, and maybe not even with a profit motive in mind, just 
because it would be interesting, challenging, and important.
    Mr. Thompson. Yes. Well, Senator, I feel very strongly that 
the Census Bureau needs to form partnerships with the private 
sector to bring in new skills and new ideas, and if I am 
confirmed, I will certainly work toward setting up the 
appropriate vehicles, avenues for that to take place.
    Chairman Carper. Talk to us about the survey that we do, I 
guess every year, the American Community Survey. I think when 
folks were critical of the Census Bureau, including some 
Members of Congress, they talked about the American Community 
Survey and they indicated among other things some of the 
questions are inappropriate, they are deemed to be invasive of 
people's privacy. Why does the census need to know some of the 
answers to some of these questions? And Dr. Coburn, Senator 
Johnson, and I over here, we are big on common sense, and we 
learned that from our parents, and you probably did, too.
    I think you make a good case and others make a good case 
for the value of the survey--not just the decennial census--to, 
among others, our business community and State and local 
governments, but there is also great value in this American 
Community Survey. But I am not so sure that some of the 
questions are entirely appropriate or are needed. And I just 
want you to think out loud about that for us here today and 
what changes, if any, might be appropriate as we try to address 
the criticisms of this particular survey. Some would say let us 
just get rid of it. I do not know that this is a smart thing to 
do. But if it is not perfect, make it better. How do we make it 
better?
    Mr. Thompson. Well, Senator, let me start by saying that I 
think the American Community Survey is very important. It 
replaced the decennial long form, so it provides the 
information that used to come from the decennial long form 
every 10 years now on an annual basis and now in small areas 
just like the decennial long form.
    I am also aware at a very high level of a number of issues 
associated with the American Community Survey. If confirmed, I 
am looking forward to digging into those issues with the many 
stakeholders of the American Community Survey. I would not want 
to design a new survey without getting the right kind of input 
in place.
    Chairman Carper. OK. Well, we will probably have a chance 
to talk about this some more.
    Mr. Thompson. I look forward to it.
    Chairman Carper. Dr. Coburn, please.
    Senator Coburn. Well, thanks again for your statement. The 
American Community Survey is kind of tied up in this lack of 
confidence in government today, which is difficult for you 
because it makes your job more difficult.
    What in your mind is in the American Community Survey that 
is also captured by private and other organizations out there 
in a sampling method?
    Mr. Thompson. Senator, I am not aware of any private 
organization that provides the level of detail comprehensively 
for the country that the American Community Survey does. But I 
understand also that there are undoubtedly opportunities to 
draw on resources to make the American Community Survey more 
effective. And, again, if I am confirmed, I would really look 
to finding ways to make it more efficient, make it less 
burdensome on the American public while still providing the 
same level of information.
    Senator Coburn. You talked in your opening statement about 
being able to provide a census more efficiently, more 
effectively, same quality of data or better, and do it for a 
better price, and most of that is going to be technology 
related.
    Does the Committee have your commitment that this is one of 
the things that you will strive for every day as you lead this 
organization?
    Mr. Thompson. Senator, that is one of the primary reasons 
that I am excited about going back to the Census Bureau, is to 
lead the effort to design a fundamentally new way to take the 
2020 census. So you have my commitment on that.
    Senator Coburn. You and I in private conversations talked 
about getting the census online as a part of that and incenting 
people to comply. Have you given any thought on your future 
plans for the 2020 census and how we will try to move toward 
using this new technology to where, in fact, we can do it more 
effectively, more efficiently, and incentivize people to comply 
so that we do not have the after-census review costs that are 
so expensive and oftentimes so difficult to ascertain?
    Mr. Thompson. Senator, I really think that motivating self-
response by the Internet is an incredibly important goal for 
the 2020 census. It will reduce the need to print hundreds of 
millions of questionnaires, to process those questionnaires, to 
have the storage space for them, to mail them, so that is very 
important.
    But I also want to note that I also understand that there 
are parts of the American population that will not have access 
to the Internet, even by 2020, and will need to have some other 
way that they can respond.
    Senator Coburn. Sure, but that is part of your 
comprehensive plan. But the fact is that will not lessen your 
desire or intensity to utilize that technology.
    Mr. Thompson. No.
    Senator Coburn. Just being aware that there are areas where 
we are not going to get feedback utilizing that.
    Senator Carper and I held a lot of hearings on the 2010 
census before it came about, and one of the problems was 
contracting at the Census Bureau, and what I am looking for is 
a commitment on cost-plus contracts, that, first of all, we are 
not going to utilize them unless they are an absolute 
necessity, and then we are going to make sure we get value out 
of cost-plus contracts.
    What are your thoughts on that? And what will be your 
policies that you set up to guide those thoughts?
    Mr. Thompson. Well, Senator, I agree with you that fixed-
price contracts, if you can provide the level of specification, 
are the best value for the government. But even if you do cost-
plus contracts, the real key is you have to have in place some 
detailed specifications; you have to have in place performance 
metrics, a delivery schedule for getting the results; and you 
have to have in place good management procedures that include 
formal change control processes. And if I am confirmed, I 
really want to work toward defining the level of specifications 
that will maximize the use of fixed-price contracts.
    Senator Coburn. One of my biggest frustrations here is when 
we have contracts and they do not perform, the Justice 
Department does not seek out or redress for the Federal 
Government based on lack of performance. Would you commit that 
if you have contractors that are contracting for you either 
under fixed-price or otherwise, you will give a referral to the 
Justice Department to make the Federal Government whole and the 
money that it spent in that regard?
    Mr. Thompson. Senator, you have my commitment that I will 
use every legal option at my disposal to direct toward 
contractors that do not perform.
    Senator Coburn. All right. Thank you.
    My office has heard from a lot of private entities, as have 
other Members of this Committee, that they can perform some of 
the mapping work that the census currently undertakes on its 
own for a tiny fraction of the price that the census spends. 
Are you committed to making sure that the census takes 
advantage of this new private industry rather than tasking the 
government to re-create the wheel when it is already available 
out there commercially?
    Mr. Thompson. Senator, you have my commitment to that as 
well. I think that there are a number of sources of emerging 
geographic information that can improve the processes that the 
census have in place in that area.
    Senator Coburn. One of the other concerns I have with the 
census, but really it applies to the whole government, we 
spend, outside of intelligence, $85 billion a year on 
information technology (IT) contracts, of which about half are 
failures. I think it is really important that you are on top of 
any area where we have an IT--and I think you have already 
referenced the weakness and the problem, because setting 
performance standards and holding compliance to those 
performance standards before you ever purchase something is the 
key to that. That is where we fail across the Federal 
Government. I mean, we are throwing $40 billion a year away in 
this government on IT contracts. And my hope is that you will 
foster a culture of adapting the agency to products that have 
been tested and work rather than take products off the shelf 
and try to change them because the census does not want to meet 
the IT program.
    The problem is we have great IT programs out there. The 
government takes them in and then tries to change the program 
to fit the government rather than the government try to fit the 
program. My hope would be that your leadership would be 
exerted, that if we are going to buy something off the shelf, 
we actually take advantage of the technology from that proven 
off-the-shelf product rather than try to change it to meet--
because it is easier than changing some programs or parameters 
within the census.
    The other area is I would like to discuss your thoughts on 
counting prisoners and military personnel in terms of the 
census.
    Mr. Thompson. So that is a very good question, Senator. My 
thoughts on that are that before each census, the Census Bureau 
works with stakeholders to define the rules they use, to 
determine where to count people where they usually live as of 
the census day, and then after each census, because our 
population and society is so dynamic, they review those rules 
for the next census. And my thoughts really on that are that I 
am going to--if I am confirmed, I am looking forward to 
reviewing those rules with the stakeholders in planning for the 
2020 census so that there is agreement that we have the right 
rules in place.
    Senator Coburn. All right. Thank you very much.
    Chairman Carper. Thank you, Dr. Coburn. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman. Mr. Thompson, 
welcome. Thank you for your testimony.
    Let us go back to that American Community Survey. It is my 
understanding the fines, if you do not respond to that, range 
somewhere between $100,000 and $500,000. Is that your 
understanding as well?
    Mr. Thompson. I understand there are fines, Senator. I am 
not aware of the specific level of the fines right now. But let 
me just say that I do not think fining people is the way to 
encourage response. The Census Bureau is a data collection 
agency, not an enforcement agency. And I really think that 
explaining to people why it is important, why their data is 
important, what it will be used for, is the best way to 
encourage response.
    Senator Johnson. Do you have any idea how often those fines 
are assessed? Really is it the Census Bureau that has the 
discretion in terms of how big that fine would be?
    Mr. Thompson. Senator, I do not have any current 
understanding on how the fines are assessed. I know that the 
Census Bureau does not determine those fines. They are 
determined by statute, and they are administered by the Justice 
Department.
    Senator Johnson. OK. Do you think that is appropriate? I 
mean, as head of the agency, would you try and minimize those 
fines?
    Mr. Thompson. Senator, that is a very complicated issue, 
and I really do not have the insight or understanding to really 
make an effective decision there.
    Senator Johnson. OK.
    Mr. Thompson. But if I am confirmed, I can assure you 
that----
    Senator Johnson. We should talk.
    Mr. Thompson. We will talk.
    Senator Johnson. The information I have in terms of the 
cost per household is $39 in 1990, $70 per household in 2000, 
and $96 per household in 2010. There is obviously some 
inflationary gains or cost increases. Do you know the reason 
for the cost increases outside of inflation?
    Mr. Thompson. I do know something about the cost increases 
from the 1900 to the 2000 census, and in 2000, there was a 
situation where the census had been planning to use sampling to 
make the counts less expensive and use statistical adjustment 
to make the counts more accurate. That was a fairly 
controversial position. And late in the game, there was a 
decision by the Supreme Court that sampling would not be used 
for the purposes of apportionment, which then meant that the 
census in 2000 had to be redesigned starting in January 1999, 
which added considerably to the cost.
    Senator Johnson. Moving forward, have you established some 
kind of goal, I mean with the advances in information 
technology, do you have a goal in terms of productivity gains, 
actually reducing the cost per household?
    Mr. Thompson. Senator, I believe that if we can get the 
right level of resources and justify the need for those 
resources, of course, to do the research necessary, that we can 
put in place a census that should be no more expensive, 
adjusted for inflation, than the 2010 census.
    Senator Johnson. OK. Well, hopefully we can actually reduce 
that cost.
    You mentioned sampling. Statistics was not exactly my best 
course in college. What percentage of the population is 
actually canvassed, I mean physically accounted for?
    Mr. Thompson. With the decennial census?
    Senator Johnson. Right.
    Mr. Thompson. The goal is to count 100 percent. There are 
some processes in place where some statistical imputation is 
used for households where they just cannot get, in spite of all 
their efforts, a response from an individual. But the goal is 
to count everyone.
    Senator Johnson. So you said there is quite a bit of 
controversy in terms of a plan for sampling using statistics. 
So we do not do that in any way, shape, or form now? We do not 
augment the canvassing with any kind of sampling or statistics?
    Mr. Thompson. Let me just draw a little line here. There 
are a lot of uses for sampling to do quality control, things 
like that that make it more effective.
    Senator Johnson. OK.
    Mr. Thompson. But there is not a use of sampling to produce 
the counts for apportionment, and I believe that there are far 
better ways than using statistical adjustment to improve the 
other counts that----
    Senator Johnson. So how do we fill in the counts then? I 
mean, is there no adjustment to the actual canvassing? In other 
words, the people we count, that is the number? Or do we 
augment that going, well, we really think we only got about 95 
percent so we are going to bump it up by 5 percent?
    Mr. Thompson. No. That would be a statistical adjustment. 
They do not do that. There is a process for a small number of 
households--at least this was the case in the 2000 census--
where despite the best efforts to knock on a door, you could 
not get a response, and for a very small percentage of cases, a 
determination had to be made regarding was the household 
occupied or not, and if it was occupied, how many people would 
have been there. If you just said no, you would be assuming 
that it was all zero, and that was not right either. But this 
was a very small portion of the count that was----
    Senator Johnson. OK. But it is specific to households, it 
is a very detailed augmentation.
    Mr. Thompson. Right.
    Senator Johnson. OK. Now that I am a Senator, I actually 
use the Census Web site more than I did as a private citizen. I 
just want to get your evaluation and opinion of the current 
Census Bureau Web site, and its ease of use.
    Mr. Thompson. I actually do not have that much trouble 
using it, but I am sort of like an insider. The Web site is 
much better than the Web site when I was there, so I find it 
easy to use. But I think the real determination of a Web site 
effectiveness is to work with the various outside users and get 
their opinion on how easy it is to use and then build in 
improvements.
    Senator Johnson. Picking up a little bit on Senator 
Coburn's questions, you are coming from the private sector now. 
Are there other private sector models that you will bring, and 
experience, to the Census Bureau to improve it, whether it is 
the Web site or just your whole data collection, and your 
productivity?
    Mr. Thompson. Well, the experiences I have had at NORC have 
dealt with using systems to automate telephony, to use the 
Internet as a response option, to use mobile computing, to use 
social media. I intend to bring those findings into the Census 
Bureau.
    Senator Johnson. OK. Well, again, thank you for your 
responses.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you, Senator Johnson.
    Senator Ayotte, welcome. Good morning.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Good morning. Thank you, Mr. Chairman.
    I want to thank you, Dr. Thompson, and let me just say your 
qualifications are impeccable, and I am very pleased that you 
want to take on this important position, and we look forward--I 
look forward to working with you.
    I just wanted to start with whether you had another 
particular to review the 2012 U.S. Government Accountability 
Office (GAO) report, which really focused on concerns about the 
cost of the census. Have you had a chance to review that 
report?
    Mr. Thompson. I have reviewed the report, but at a very 
high level.
    Senator Ayotte. OK, because I think one of the things the 
report identified in it was that the costs of the decennial 
census rose from $8 billion in 2000 to $13 billion in 2010, 
which would be a 56-percent increase. And I know that you 
talked about a Supreme Court case that would have changed 
sampling methodology. But according to the GAO, one of the 
concerns they raised in that report was that the Census Bureau 
could not identify specific sources of cost growth from 2000 to 
2010. And so within the report, the GAO found that the Bureau 
had not developed mitigation or contingency plans for looking 
forward to 2020, which I know Dr. Coburn already asked you 
about. So I think that is one of the key issues for you, 
thinking about the prior cost growth, thinking about obviously 
the fiscal challenges facing the Nation, of not doubling the 
cost growth looking forward to the 2020 census and having a 
strong plan.
    What initial thoughts do you have on that for us here today 
to make sure that we are responsibly using taxpayer dollars?
    Mr. Thompson. Well, let me first say that I do have the 
greatest respect for the GAO and for the inspector general 
(IG). They actually helped me a lot when I was there in 2000. 
And if I am confirmed, I do want to sit down with them, really 
understand their concerns in detail, and work for them.
    Senator Ayotte. Good.
    Mr. Thompson. But I think it is important that you have a 
well-laid-out planning process with metrics, with milestones, 
and you have a good cost model so you can control costs, track 
costs, understand where you are. I think that is very 
important, and that is one of the things that I would plan to 
have in place.
    Senator Ayotte. And, Dr. Thompson, to the extent you can, 
would you be coming back to the Committee also to share some 
thoughts on as you came up with the metrics and modeling 
looking forward to 2020?
    Mr. Thompson. Oh, I would welcome any opportunity to come 
work with the Committee.
    Senator Ayotte. Terrific.
    Mr. Thompson. I would value the input.
    Senator Ayotte. Great. And I know that you have already 
been asked questions about the American Community Survey, but 
this issue really--certainly as Dr. Coburn identified, this is 
an issue of trust with the government and also my 
constituents--I mean, I hear some deep concerns about some of 
the questions and the depth of this survey. And it cannot be 
underestimated. The stories that we hear, of course, are that 
my constituents are contacted, they are visited, they are 
visited, they are visited, and then they find out really the 
extent of the questions that they are asked.
    So what I did today was just looked at the current survey 
just to kind of get a sense of what it looks like, and it is 
about 48 questions, but that does not include subparts. And I 
think if I went through the subparts, it probably gets close to 
100 questions that they are asked. And some of them are quite 
intrusive. I mean, I look at things like, ``Because of a 
physical, mental, or emotional condition, does this person have 
serious difficulty concentrating, remembering, or making 
decisions?'' That is a very personal question. Or, ``Does this 
person have difficulty dressing or bathing?'' Obviously about 
someone with a disability.
    There is a whole length of other questions, I mean, very 
detailed questions, that this is an issue that I would hope 
that in your new position we would not be asking questions of 
individuals that are not fully justified or necessary, because 
these are very intrusive questions to ask individuals about, 
and obviously these questions go from the background of your 
heritage all the way to your income to where you live.
    I mean, I love this one: ``Does this house, apartment, or 
mobile home have a sink with a faucet?''
    These are very detailed questions, so you can understand, 
with your average person where they are subject to fines being 
asked detailed questions by the government that are very 
personal, why that would raise very deep privacy concerns with 
many individuals.
    So that is what you are hearing from the public, and I 
would think that our responsibility, both as Members of 
Congress and your responsibility in your new position, would be 
to be as least intrusive as possible in terms of respecting the 
privacy of the American people. That is the commitment I am 
asking for from you today, because I can understand if I were 
asked some of these questions why I would get my dander up.
    Mr. Thompson. Senator, well, let me say that I would not 
want to unduly burden the American public, and I would be 
committed to ensuring that the questions that are asked have to 
be asked and there is a right purpose to them and a documented 
purpose.
    I also want to assure you that my whole career has been 
devoted to protecting the privacy of the responses, both at the 
Census Bureau and at NORC, the company I am at now. It is just 
critical to be in a position to continue to earn their trust so 
that you can collect vitally important information.
    Senator Ayotte. Well, what I would hope is for obviously 
every single question on this survey, that it be scrutinized 
very carefully to really ask put yourself in the shoes of the 
people being asked, the American people, and then also why is 
this necessary for government to have this information. And I 
think there has to be a fairly high justification, particularly 
with some of the very personal questions that I raised. So I 
would hope that you would bring that kind of standard into 
reviewing this process.
    Mr. Thompson. Senator, if I am confirmed, I would love to 
explore these with you in more detail. Again, I do not want to 
unduly burden the American public, but at the same time, I want 
to collect the information that is necessary to administer the 
important programs that the American Community Survey is 
designed to support.
    Senator Ayotte. Now, I appreciate that, and I think it is 
the issue of, people understanding, us making sure that we are 
really scrutinizing this so that information that does not need 
to be collected is not collected. So I appreciate very much 
your willingness to take this on and your prior experience in 
this area, and I look forward to working with you.
    Mr. Thompson. Thank you, Senator.
    Senator Ayotte. Thank you.
    Chairman Carper. Senator Ayotte, thank you. Thanks for 
coming. Thanks very much for those questions.
    Senator Ayotte. Thank you.
    Chairman Carper. Sometimes people say to me, ``Well, what 
have you done before you were a Senator that actually prepared 
you for what you are responsible for doing now?'' And there are 
a number of things that I have done. And we all came here on 
different paths. Dr. Coburn had an incredible life and career 
that enabled him to lead businesses, big businesses, become a 
doctor, and serve in the Congress. We all come from different 
paths, but we pick up training, experiences from those 
different paths, core values. My core values, as I talk about 
from time to time, include figuring out the right thing to do, 
do it, not the easy thing, not the expedient thing, the right 
thing to do; and treating other people the way we want to be 
treated. We focus here on trying to get better results for less 
money, but, really, how do we focus on excellence in everything 
that we do? And just do not give up. We do not give up. So 
those are my core values.
    Talk to us about your core values as a human being, as a 
leader. Where do they come from? Where do those core values 
come from? And how are they going to help you in what you do? 
We talk about job experience and so forth. Sometimes our core 
values are more important than anything else, particularly as a 
leader.
    Mr. Thompson. So one of the values that has motivated me 
throughout my career is to produce information that has an 
important social good, and that is one of the reasons I went to 
the Census Bureau so that I could work on that.
    Another value that I really think is important is that I 
have always been very honest, very open with people, and to do 
things that have integrity, to make the right kind of decision, 
and to be open about it.
    My core values I guess are really based on honesty, 
integrity, and openness.
    Chairman Carper. Where does that come from? How did you 
learn these things?
    Mr. Thompson. Well, I guess it started with my parents, who 
did a good job convincing me that it was very good to be open 
and honest. And then as I got to the Census Bureau, I got to 
work initially, both at Census and outside Census, with some of 
the finest statisticians who built the field, and they had this 
ethic about being open and about being honest, and learning 
from them was very important.
    Chairman Carper. I was talking with someone the other day 
about lessons learned, and they were talking about we have good 
role models and we have bad role models, but we can learn from 
both of them. From the bad role models, we can learn how not to 
do bad things or stupid things. So both of those work.
    You had the opportunity to leave the Census Bureau after, I 
think, about 27 years and to go off to join the folks at the 
National Opinion Research Center. Most people have never heard 
of it. Most everybody has heard of the census and the Census 
Bureau. Most people do not have a clue what the National 
Opinion Research Center does. And you got there, and you ended 
up in a pretty important job, ended up being the president of 
the operation for a number of years.
    Just talk to us, for people who do not have a clue about 
the National Opinion Research Center or what they do, talk to 
us why that was an important thing for you to do in terms of 
your growth and your ability to assume these responsibilities 
that have been nominated for.
    Mr. Thompson. Thank you, Senator. Actually, I probably am 
one of the few people that had known of the National Opinion 
Research Center for quite a while. They had provided a lot of 
advice to me when I was at the Census Bureau on various 
statistical matters. They have a long history of doing 
excellent survey methodology work. So when I was looking around 
to retire after 27 years at the Census Bureau, I visited a 
number of companies, and NORC was a company that shared my 
vision of doing work that was very important for the public 
good. And at the time, NORC also offered a new challenge in 
that they were reinventing themselves at the time and needed 
some help to fix their data collection operations. And I was 
happy to go help out this organization which shared this view 
of doing high-quality work in the public good.
    And as I got to NORC, I had the opportunity then to work 
with technology to make operations more effective and reduce 
costs, and I had the opportunity to establish a vision for the 
company when I took over as president, which was based on 
establishing a leadership position in our field and drawing on 
our most important resource--our employees--to do that.
    Chairman Carper. During the time I served as Governor, I 
was involved in the National Governors Association (NGA), and I 
remember meeting with other Governors. We would talk about the 
challenges that we faced in our respective States. And I would 
come back, and we would have cabinet meetings, and whatever 
issue we were focusing on--raising student achievement, 
environmental issues, job creation, financial controls--I would 
always say, ``Some Governor in some State, has wrestled with 
this issue, they have figured out how to deal with it in an 
effective way, and we have to find that State, that person, 
figure out how they do it, and see if it is something that 
could be exported to us, if we could do it.''
    Just about every other major country in the world--I think 
all of them conduct a census and have done it for a long time. 
Some of them probably do it pretty well. Some, probably not. 
Who are the countries that we can learn from? And what are some 
specific lessons we might be able to learn as we prepare for 
2020?
    Mr. Thompson. I think right off the bat, our neighbor to 
the northern, Canada, would be a really good place to start 
working with. They have been using the Internet as a primary 
response option. I believe that they had a very successful 
utilization of that, so I think that would be one really good 
country to start with.
    England uses some similar methods to the United States. 
They would be another good country, as would Australia.
    Chairman Carper. And what could they learn from us?
    Mr. Thompson. Well, what they would learn from us, I 
believe, is how to use automation in a very diverse setting, 
because our country I believe is more diverse than England and 
Australia, and how we go about putting that in place would be, 
I think, very valuable for them.
    Chairman Carper. OK. I want to go back to the American 
Community Survey again. Senator Johnson talked about the level 
of fines. You indicated--I thought it was a good response. You 
said, ``Our focus should not be so much on how much we want to 
fine people for their failure or refusal to actually 
participate, but try to better explain why the American 
Community Survey is important, why it is of value to our 
country, and why we need for folks to spend some time to comply 
with that or respond to it.''
    It is a shared responsibility, though. It should not fall 
just on the Census Bureau. It should fall on the business 
community who use that information on State and local 
governments, and on the Federal Government, on us. We have a 
shared responsibility to explain why it is important and not 
just to say, OK, if you do not do it, you are going to get 
fined. That is not the right response.
    I think the American Community Survey can be considered 
almost a dress rehearsal for the decennial and give us a chance 
to experiment with some new ideas, new technologies, new 
approaches that we do not want to bet the house on every 10 
years, but we might be able to try some things on the ACS that 
would inform us going to 2020. Talk about how that might 
happen.
    Mr. Thompson. Certainly, Senator. Well, first off the bat, 
you have--the ACS is now starting to offer the Internet as a 
response option.
    Chairman Carper. Talk a little bit more about that. Expand 
on that.
    Mr. Thompson. So there are options to learn how to motivate 
response via the Internet through the ACS. There is a wide body 
of research going on in the public and private sector right now 
about how to motivate individuals to respond via the Internet. 
And the ACS certainly offers a good test bed for trying new 
methodologies, bringing in researchers from outside the 
government to work with the Census Bureau to put in place the 
Internet techniques.
    The other opportunity, I think, that the ACS--well, there 
are at least two more. Another opportunity that the ACS offers 
is the ability to try out new technology on a limited basis to 
see how it works, to understand the mechanics of it, to 
understand the human factors that are associated with 
introducing it.
    And, finally, the ACS, because it is a widely dispersed 
survey, does offer the opportunity to have people do on-the-
ground checks where you can look at some of the private sector 
geographic products and compare them to what the Census Bureau 
has and understand the nature of the differences and the nature 
of the gaps in them.
    Chairman Carper. OK. I want to go back to several years ago 
to the run-up to the 2010 census. And I do not remember this 
with great precision, but my recollection is we had three 
Directors or Acting Directors of the Census just over a period 
of like a couple of years in the run-up to the Census. One of 
the reasons why a number of us on this Committee supported the 
idea of having a 5-year term for the Census Director was to 
provide some continuity and so that we would not ever go 
through that situation again.
    If you should be confirmed for this position, you will fill 
out the remainder of the 5-year term that was being served by 
Dr. Groves; I think it is about 3 years. And if you are 
interested and the President is interested, whoever is 
President, and wants to nominate you again, he could do it, and 
that would carry us conceivably through the 2020 census. So we 
will have the opportunity for real continuity for 3 years and 
then maybe another 5 years, and hopefully not face what we 
faced several years ago.
    I think most people in this country, if you said, how would 
you like to be Director of the Census as opposed to being a 
movie star or a Senator or whatever, people would probably have 
other--Dr. Coburn? [Laughter.]
    People would say, ``That is not a very interesting or 
exciting job.'' Actually, I think it could be a hugely exciting 
job.
    Mr. Thompson. I think it is a very exciting job, Senator. 
At least it is very exciting to me. I think there is tremendous 
opportunity to work as Director with the other statistical 
agency heads to find efficiencies and adopt new technologies in 
government. The Census Bureau touches so many other agencies. 
There is tremendous opportunity.
    And the other thing that I think is really exciting is to 
really put in place a design for a 2020 census. That is a 
fundamental change in the way censuses are taken, and that is 
very exciting to me.
    Chairman Carper. All right. My last question is: What can 
we do on our side, our end of this government in the 
legislative branch, in this Committee, what can we do to help 
the Census to do a better job, better results, more accurate, 
but not for a whole lot more money?
    Mr. Thompson. Senator, if I am confirmed, I would hope that 
I would have the opportunity to work with you and the other 
Members of the Committee on those issues and that you would be 
amenable to having me come down to talk to you about ideas and 
things, gain your advice and counsel. That would be just 
invaluable help.
    Chairman Carper. All right. Sometimes when we have a 
hearing, we get to the end of the hearing--we always ask you to 
do an opening statement. This is one of those hearings where 
you will be given a chance just to offer a short closing 
statement as well, and you could re-emphasize something you 
thought was important, maybe something that occurred to you 
that you did not say earlier, something that comes to you by 
virtue of the questions you have heard. Maybe you want to more 
fully answer a question. But this is your opportunity to do 
that.
    Mr. Thompson. Well, thank you, Senator. Let me just re-
emphasize the fact that I am glad that the President nominated 
me for this position. I am very excited about the opportunities 
to provide leadership to one of the most important statistical 
agencies in the United States. I am looking forward, if I am 
confirmed, to having the opportunity to lead the effort to 
design a new census. And I am also looking forward to the 
opportunity to build on the work that Bob Groves already 
started, to put in place a permanent culture at the Census 
Bureau that is adaptive and innovative. That is what I am 
really excited about. And I am interested in doing that in an 
environment that is open and transparent to all stakeholders.
    Chairman Carper. When we were considering legislation to 
provide for a 5-year term for the Census Director, we also 
considered whether or not to change the chain of command for 
the Census. And I think the idea was to say whether or not the 
Census Director should report directly to the Secretary of 
Commerce or to have the Census Director reporting not to the 
Secretary of Commerce but another reporting arrangement.
    In your view, what is the appropriate relationship between 
the Census Director and the Under Secretary for Economic 
Affairs and the Census Director and the Secretary of Commerce? 
And how do you envision working with the Under Secretary? I 
think it is Mark Doms, Under Secretary Doms. And we have a new 
Secretary there, Penny Pritzker. Just talk a little bit about 
that reporting relationship.
    Mr. Thompson. Sure. So I have always had pretty good 
relationships when I was at Census with the Under Secretary for 
Economic and Statistical Affairs (ESA), and with the Secretary 
of Commerce when I had the opportunity to work with them. And I 
am really looking forward to working with Mark Doms. He is the 
Under Secretary for Economic Affairs. And I am really looking 
forward to working with Secretary Pritzker, if I am confirmed. 
I met both of them. I think they are very qualified 
individuals, and I think that we will have a very productive 
working relationship.
    Chairman Carper. All right. Good enough.
    OK. I think with that it is a wrap. I went on too long 
here, and Dr. Coburn I think gave up on me and bailed. I 
apologize in his absence for not yielding.
    We appreciate your willingness to do this. We appreciate 
the President giving us a good nominee, a good name, and his 
responsibility and the Administration's responsibility is to 
find able people to fill these positions. Our responsibility, 
after they have vetted them, is for us to vet them and to 
review your credentials and have a chance to talk with you and 
have a public hearing like this, and, frankly, talk to a lot of 
other people who know you and are familiar with the work that 
you do and have done and your capabilities and the nature of 
the responsibilities the Census Director is going to be facing 
in the years to some.
    So we are grateful for your past service, grateful for your 
willingness to come back and to serve in this capacity.
    I want to again welcome your sons for joining us here 
today. As I watched you speak, from time to time I could see 
their lips move---- [Laughter.]
    As you were giving some of your testimony. But I thought 
you did and they did a good job in responding to our questions.
    We have some more time here for folks who are not here in 
person today to ask questions, but the hearing record will 
remain open until, noon tomorrow--for the submission of 
statements for those who want to give them and for questions 
for the record.
    With that having been said, this hearing is adjourned. 
Thanks very much.
    Mr. Thompson. Thank you, Senator.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
